APPENDIX

APPENDIX
TABLE OF CONTENTS
Opinion in the United States Court of Appeals for the Eighth Circuit
(April 22, 2021) ................................................................................................ App. 1
Order in the United States District Court for the District of North Dakota
(November 20, 2019)........................................................................................ App. 3
Judgment in the United States District Court of the District of North Dakota
(November 20, 2019)...................................................................................... App. 23
Judgment in the United States Court of Appeals for the Eighth Circuit
(April 22, 2021) .............................................................................................. App. 24
18 U.S. Code § 3006A ......................................................................................... App. 25

i

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 19-3632
___________________________
Charles Ahumada
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
____________
Appeal from United States District Court
for the District of North Dakota - Bismarck
____________
Submitted: February 17, 2021
Filed: April 22, 2021
____________
Before COLLOTON, BENTON, and KELLY, Circuit Judges.
____________
BENTON, Circuit Judge.
Charles Ahumada was convicted of two drug crimes. Under the Criminal
Justice Act (CJA), this court appointed Kent M. Morrow to represent him on appeal.
This court affirmed. United States v. Ahumada, 858 F.3d 1138, 1139 (8th Cir.
2017). This court alerted Morrow to the 14-day deadline for petitions for rehearing.
Morrow failed to notify Ahumada until after the deadline passed. Morrow did not
explain the rehearing process. Ahumada filed a pro se motion to extend the filing

Appellate Case: 19-3632

Page: 1

App.1
Date Filed: 04/22/2021 Entry ID: 5027976

deadline. This court granted the motion and recalled the mandate. Ahumada
submitted his petition, after the new deadline. This court denied it.
Ahumada filed a pro se motion to vacate under 28 U.S.C. § 2255. He claimed
Morrow abandoned him by failing to communicate and provide requested
documents. The district court1 denied his motion but issued a certificate of
appealability on Ahumada’s right to counsel for a petition for rehearing. United
States v. Ahumada, 1:15-cr-00044-DLH-2, Docket No. 133, at 12-18 (D.N.D. Nov.
20, 2019).
“This court reviews de novo the district court’s legal determinations, and for
clear error its findings of fact.” Dilang Dat v. United States, 983 F.3d 1045, 1047
(8th Cir. 2020).
“[T]he Fifth Amendment due process clause governs the right to counsel for
appellate proceedings.” Steele v. United States, 518 F.3d 986, 988 (8th Cir. 2008),
citing Ross v. Moffitt, 417 U.S. 600, 610-11 (1974). A criminal defendant has a
constitutional right to counsel on the first direct appeal. Id., citing Douglas v.
California, 372 U.S. 353, 357-58 (1963). This “encompasses the right to effective
assistance of counsel.” Id., citing Evitts v. Lucey, 469 U.S. 387, 396-400 (1985).
Distinct from a first direct appeal, a petition for rehearing is a discretionary
appeal. See Fed. R. App. P. 40(a)(4) (“If a petition for panel rehearing is
granted . . . .” (emphasis added)). “En banc review, like the Supreme Court’s
certiorari jurisdiction, is discretionary.” United States v. Dunlap, 936 F.3d 821,
824 (8th Cir. 2019). See generally Jackson v. Johnson, 217 F.3d 360, 364-65 (5th
Cir. 2000) (petition for rehearing is discretionary); United States v. Coney, 120 F.3d
26, 28 (3d Cir. 1997) (same); McNeal v. United States, 54 F.3d 776, *2 (6th Cir.
1995) (unpublished table order) (same). Cf. Nichols v. United States, 563 F.3d 240,
The Honorable Daniel L. Hovland, United States District Judge for the
District of North Dakota.
-21

Appellate Case: 19-3632

Page: 2

App.2
Date Filed: 04/22/2021 Entry ID: 5027976

252 (6th Cir. 2009) (declining to decide whether a petition for rehearing is a firsttier appeal or a separate review).
There is no constitutional right to counsel for discretionary appeals. Austin
v. United States, 513 U.S. 5, 8 (1994) (per curiam), citing Ross, 417 U.S. at 616-17.
A defendant without a constitutional right to counsel “cannot be deprived of the
effective assistance of counsel.” Steele, 518 F.3d at 988 (addressing right to counsel
for certiorari petition), quoting Wainwright v. Torna, 455 U.S. 586, 587-88 (1982)
(internal quotations omitted). Because Ahumada has no constitutional right to
rehearing counsel, he cannot claim ineffective assistance of counsel.
He argues the CJA, this circuit’s CJA plan, or Federal Rule of Criminal
Procedure 44(a) grant the right to effective assistance of counsel for petitions for
rehearing. See 18 U.S.C. § 3006A(c) (appointed counsel shall represent defendant
“at every stage of the proceedings from his initial appearance . . . through appeal,
including ancillary matters”); Fed. R. Crim. P. 44(a) (a defendant is entitled to
counsel “at every stage of the proceeding from initial appearance through appeal,
unless the defendant waives this right”); REVISION OF PART V OF THE EIGHTH
CIRCUIT PLAN TO IMPLEMENT THE CRIMINAL JUSTICE ACT OF 1964,
https://ecf.ca8.uscourts.gov/newrules/coa/Plan_V_Revision.pdf (last visited Apr.
19, 2021) (counsel “must” file petition for rehearing if defendant requests it and there
are reasonable grounds to do so). While these “may well embody the congressional
judgment as to what representation to afford defendants, [they are] not a statement
of what the Constitution requires.” See Steele, 518 F.3d at 988; Walker v. United
States, 810 F.3d 568, 576 (8th Cir. 2016) (following Steele). Cf. Pennsylvania v.
Finley, 481 U.S. 551, 556 (1987) (“Respondent apparently believes that a ‘right to
counsel’ can have only one meaning, no matter what the source of that right. . . .
Rather, it is the source of that right to a lawyer’s assistance, combined with the nature
of the proceedings, that controls the constitutional question.”).
“The alleged breach of the provisions of our [CJA] plan and Rule 44(a) did
not deprive [the defendant] of due process of law and did not give rise to a claim for
-3Appellate Case: 19-3632

Page: 3

App.3
Date Filed: 04/22/2021 Entry ID: 5027976

ineffective representation of counsel.” Steele, 518 F.3d at 988. A constitutional
right is required before Ahumada can be deprived of ineffective representation of
counsel. See id. Even assuming there was a breach of the statute, the CJA, it does
not give rise to a claim for ineffective representation of counsel. Compare Jackson,
217 F.3d at 364-65 (no constitutional right to counsel for petition for rehearing);
McNeal, 54 F.3d at 776, *2 (same), with Taylor v. United States, 822 F.3d 84, 90
(2d Cir. 2016) (holding “that the CJA entitles defendants to representation in filing
non-frivolous petitions for rehearing and rehearing en banc,” but not addressing
constitutional grounds); United States v. Howell, 37 F.3d 1207, 1209 (7th Cir. 1994)
(the CJA, CJA plan, and Rule 44 “make it clear that the defendant in a direct criminal
appeal has the right to have the continued representation of appointed counsel
throughout the course of the appeal, including the filing of post-opinion pleadings
in the court of appeals”), citing Wilkins v. United States, 441 U.S. 468, 470 (1979)
(per curiam) (explaining that appointed counsel’s failure to file certiorari petition
violated Third Circuit’s CJA plan, but not addressing constitutional grounds);
Doherty v. United States, 404 U.S. 28, 29 (1971) (per curiam) (remanding to
appellate court to consider defendant’s statutory right to counsel under CJA when
filing a petition for writ of certiorari); Schreiner v. United States, 404 U.S. 67, 67
(1971) (per curiam) (same).
The district court properly denied Ahumada’s § 2255 motion.
*******
The judgment is affirmed.
________________________

-4Appellate Case: 19-3632

Page: 4

App.4
Date Filed: 04/22/2021 Entry ID: 5027976

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 1 of 18

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
United States of America,
Plaintiff,
vs.
Charles Ahumada,
Defendant.
Charles Ahumada,
Petitioner,
vs.
United States of America,
Respondent.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER DENYING DEFENDANT’S
MOTION FOR HABEAS RELIEF
Case No. 1:15-cr-044

Case No. 1:18-cv-183

Before the Court is Defendant Charles Ahumada’s Motion to Vacate under 28 U.S.C. § 2255
filed on September 7, 2018. See Doc. No. 125. The Government filed a response in opposition to
the motion on November 23, 2018. See Doc. No. 129. Ahumada filed a reply on January 28, 2019.
See Doc. No. 132. For the reasons outlined below, the motion is denied.

I.

BACKGROUND
On March 4, 2015, Ahumada was charged, along with a co-defendant, in a two-count

indictment with the crimes of conspiracy to possess with intent to distribute and distribute a
controlled substance (heroin) in violation of 21 U.S.C. § 841(a)(1) and 18 U.S.C. §2 (Count One) and
of possession with intent to distribute a controlled substance (heroin) in violation of 21 U.S.C. §
841(a)(1) and 18 U.S.C. § 2 (Count Two). See Doc. No. 1. On May 7, 2015, Ahumada filed a

App.5

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 2 of 18

motion to suppress evidence, challening the search and seizure resulting from a traffic stop. See Doc.
No. 36. The Court held a hearing and issued an order denying the motion to suppress. See Doc. No.
52.
Ahumada proceeded to trial and was found guilty of both counts, on October 8, 2015.
See Doc. No. 66. On February 3, 2016, Ahumada was sentenced to 156 months imprisonment. See
Doc. No. 106. He timely appealed to the Eighth Circuit Court of Appeals on February 4, 2016.
See Doc. No. 108. The Eighth Circuit Court of Appeals dismissed his appeal on June 5, 2017, and
issued a mandate on June 17, 2017. See Doc. Nos. 117 and 118.
On July 10, 2017, Ahumada filed a pro se motion for an extension of time to file a motion for
rehearing or rehearing en banc. See Doc. No. 125-3, pp. 1-4. The Eighth Circuit granted the motion
and recalled its mandate. See Doc. No. 125-5. Ahumada was given until July 19, 2017, to file his
petition for rehearing. See Doc. No. 125-5. Ahumada did not file his petition for rehearing until July
25, 2017. See Doc. No. 129-1. On August 15, 2017, the Eighth Circuit Court of Appeals dismissed
his petition for rehearing as untimely, and denied his petition for rehearing. See Doc. No. 125-6.
Mandate was reissued on August 23, 2017. See Doc. No. 125-6.
On September 7, 2018, Ahumada filed the instant motion to vacate, set aside, or correct
sentence pursuant to 28 U.S.C. § 2255. See Doc. No.125. In his petition, Ahumada claims
ineffective assistance of counsel and sets forth four grounds: (1) trial counsel’s failure to obtain
evidence regarding a confidential informant; (2) trial counsel’s failure to challenge the indictment’s
omission of a penalty provision; (3) appellate counsel’s alleged errors; and (4) failure of both trial
and appellate counsel to communicate and provide court files and effective abandonment of the case
by appellate counsel. See Doc. No. 125, pp. 5-8. On November 23, 2018, the Government filed a

2

App.6

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 3 of 18

response arguing that Ahumada’s claims fail on the merits and that his petition should be dismissed.
See Doc. No. 129. Ahumada filed a reply on January 29, 2019. See Doc. No. 132.

II.

STANDARD OF REVIEW
“28 U.S.C. § 2255 provides a federal prisoner an avenue for relief if his ‘sentence was

imposed in violation of the Constitution or laws of the United States, or . . . was in excess of the
maximum authorized by law.’” King v. United States, 595 F.3d 844, 852 (8th Cir. 2010) (quoting
28 U.S.C. § 2255(a)). This requires a showing of either constitutional or jurisdictional error, or a
“fundamental defect” resulting in a “complete miscarriage of justice.” Davis v. United States, 417
U.S. 333, 346 (1974); Hill v. United States, 368 U.S. 424, 428 (1962). A 28 U.S.C. § 2255 motion
is not a substitute for a direct appeal, and is not the proper way to complain about simple trial errors.
Anderson v. United States, 25 F.3d 704, 706 (8th Cir. 1994). A 28 U.S.C. § 2255 movant “must clear
a significantly higher hurdle than would exist on direct appeal.” United States v. Frady, 456 U.S.
152, 166 (1982). Section 2255 is “intended to afford federal prisoners a remedy identical in scope
to federal habeas corpus.” Davis, 417 U.S. at 343.
A prisoner is entitled to an evidentiary hearing on a Section 2255 motion unless the motion,
files, and records of the case conclusively show that the prisoner is not entitled to relief. 28 U.S.C.
§ 2255; Engelson v. United States, 86 F.3d 238, 240 (1995). A Section 2255 motion “may be
dismissed without hearing if (1) movant’s allegation, accepted as true, would not entitle the petitioner
to relief, or (2) [the] allegations cannot be accepted as true because they are contradicted by the
record, are inherently incredible, or are conclusions rather than statements of fact.” See Winters v.
United States, 716 F.3d 1098 (2013); see also, Holloway v. United States, 960 F.2d 1348, 1358 (8th

3

App.7

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 4 of 18

Cir. 1992) (a single, self-serving, self-contradicting statement is insufficient to render the motions,
files and records of the case inconclusive); Smith v. United States, 618 F.2d 507, 510 (8th Cir. 1980)
(mere statement of unsupported conclusions will not suffice to command a hearing).

III.

LEGAL DISCUSSION
The Sixth Amendment guarantees a criminal defendant the right to effective assistance of

counsel. To be eligible for habeas relief based on ineffective assistance of counsel, a defendant must
satisfy the two-part test announced in Strickland v. Washington, 466 U.S. 668, 687 (1984). First, a
defendant must establish that defense counsel’s representation was constitutionally deficient, which
requires a showing that counsel’s performance fell below an objective standard of reasonableness.
Id. at 687-88. This requires showing that counsel made errors so serious that defense counsel was
not functioning as the ‘counsel’ guaranteed by the Sixth Amendment. Id. at 687-88. In considering
whether this showing has been accomplished, “[j]udicial scrutiny of counsel’s performance must be
highly deferential.” Id. at 689. If the underlying claim (i.e., the alleged deficient performance) would
have been rejected, defense counsel’s performance is not deficient. Carter v. Hopkins, 92 F.3d 666,
671 (8th Cir. 1996). Courts seek to “eliminate the distorting effects of hindsight” by examining
defense counsel’s performance from counsel’s perspective at the time of the alleged error. Id.
Second, it must be demonstrated that defense counsel’s performance prejudiced the defense.
Strickland, 466 U.S. at 687. In other words, under this second prong, it must be proven that “there
is a reasonable probability that, but for counsel’s unprofessional errors, the result of the proceedings
would have been different.” Id. at 694. A reasonable probability is one “sufficient to undermine
confidence in the outcome.” Wiggins v. Smith, 539 U.S. 510, 534 (2003). An increased prison term

4

App.8

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 5 of 18

may constitute prejudice under the Strickland standard. Glover v. United States, 531 U.S. 198, 203
(2001).
There is a strong presumption that defense counsel provided “adequate assistance and made
all significant decisions in the exercise of reasonable professional judgment.” Strickland, 466 U.S.
at 690; Vogt v. United States, 88 F.3d 587, 592 (8th Cir. 1996). A court reviewing defense counsel’s
performance must make every effort to eliminate hindsight and second-guessing. Strickland, 466
U.S. at 689; Schumacher v. Hopkins, 83 F.3d 1034, 1036-37 (8th Cir. 1996). Under the Strickland
standard, strategic decisions that are made after a thorough investigation of both the law and facts
regarding plausible options are virtually unchallengeable. Strickland, 466 U.S. at 690.
When the defendant asserts that there are multiple deficiencies, each claim is reviewed
independently. Middleton v. Roper, 455 F.3d 838, 851 (8th Cir. 2006). There is no “cumulative
error” rule applied to assistance of counsel claims. United States v. Robinson, 301 F.3d 923, 925 n.3
(8th Cir. 2002).

A.

Evidence Concerning an Alleged Witness

In his first ground for relief, Ahumada asserts his trial counsel was ineffective in failing to
argue the Government improperly withheld the identity of a confidential informant. Ahumada asserts
that the information obtained from the confidential informant was used “to justify a traffic stop, and
conduct a warrantless search of the vehicle.” See doc. No. 125-7, p. 4. Ahumada further asserts that
the “failure to produce this alleged witness, or any information thereof, could amount to a fraud upon
the court(s), impeachment of [the law enforcement officer’s] sworn Criminal Complaint affidavit, and
pejured Grand Jury testimony.” See id. The Government responds that the disclosure of information

5

App.9

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 6 of 18

regarding the informant would not have resulted in suppression of evidence because neither the traffic
stop or Ahumada’s vehicle, nor the search of the vehicle, were based upon any information provided
by the informant. See Doc. No. 129, p. 8. The Government contends the stop was based on a traffic
violation. See id.
Ahumada’s trial counsel filed a motion to suppress the evidence obtained as a result of the
traffic stop. See Doc. No. 36. The Court held a hearing on the motion and issued an order denying
the motion. See Doc. Nos. 46 and 52. The Court’s order set forth the following:
The parties do not dispute that the initiation of the traffic stop was valid. The
record supports the fact that [the law enforcement officer] had probable cause to
initiate the traffic stop because the vehicle was traveling 64 miles per hour in a 60
mile per hour zone. [The law enforcement officer] testified that [Ahumada’s codefendant] exhibited nervousness, rapid speech, and continually cut [the law
enforcement officer] off while he was speaking with him. [The law enforcement
officer] deployed his K-9 drug dog, Max, who is certified to detect narcotics, to sniff
the exterior of the vehicle. Max conducted a free air sniff of the vehicle and positively
indicated on the vehicle for illegal drugs. Once Max alerted on the exterior of the
vehicle, [the law enforcement officer] had probable cause to search the vehicles’
interior without a warrant. See United States v. Bloomfield, 40 F.3d 910, 919 (8th
Cir. 1994).
The record demonstrates the dog sniff did not unreasonably prolong the traffic
stop. The drug dog was located in [the law enforcement officer’s] vehicle at the time
of the traffic stop. The dog began sniffing the exterior fo the vehicle approximately
15 minutes after the initial stop was made. Applying binding Eighth Circuit precedent
at the time of the traffic stop, the dog sniff did not violated Ahumada’s Fourth
Amendment rights. The Court finds [the law enforcement officer] objectively and
reasonably relied on binding circuit precedent when he deployed his K-9 dog to detect
narcotics in the defendant’s rental case. Therefore, the exclusionary rule does not
apply. See Davis v. United States, 131 S. Ct. at 24028-29; see also Givens, 763 F.3d
at 992.
Based on the totality of the evidence presented in this case and a careful
review of the entire record, the Court finds [the law enforcement officer] conducted
a lawful traffic stop which led to probable cause to conduct a search of the vehicle
rented to Ahumada. Events that occurred during and after the traffic stop generated
reasonable suspicion to justify further detention. The Court finds that Ahumada was
not seized for an unreasonable length of time, and his Fourth Amendment rights were
not violated during the traffic stop.

6

App.10

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 7 of 18

See Doc. No. 52, p. 5-6. The Eighth Circuit Court of Appeals came to the same conclusion when
reviewing the traffic stop:
There is no dispute that [the law enforcement officer] had probable cause to
seize Ahumada and [his co-defendant] when he saw that the car was speeding on the
highway. . . .
The [law enforcement officer] testified that he received information from a
reliable informant that Ahumada and [his co-defendant] sold heroin shortly before the
traffic stop. The district court, however, made no findings of fact about the [law
enforcement officer’s] interaction with the informant, and it is unnecessary for us to
address whether the trooper established probable cause or reasonable suspicion to
make or extend a traffic stop.
United States v. Ahumada, 838 F.3d 1138, 1140 and n.2 (8th Cir. 2017).
Although not squarely on point with Ahumada’s argument in his petition, the Court’s ruling
on the traffic stop and the Eighth Circuit’s opinion affirming the ruling, is instructive. Even if the
Court were to determine that Ahumada’s counsel’s failure to pursue the testimony of the confidential
information fell below an objective standard of reasonableness, Ahumada has failed to demonstrate
that he was prejudiced by counsel’s performance. As both this Court and the Eighth Circuit found,
the traffic stop was justified by the fact the vehicle was speeding. The information the law
enforcement officer received from the confidential informant, truthful or otherwise, was supplanted
by the fact the law enforcement officer had a separate valid justification for stopping the vehicle.
Once the vehicle was justifiably stopped, the subsequent search was supported by the alert of the drug
dog. The Court finds Ahumada has failed to establish that but for counsel’s alleged unprofessional
errors, the result of the proceedings would have been different. Accordingly, Ahumada is not entitled
to relief on this ground.

7

App.11

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 8 of 18

B.

Omission of Penalty Provision in Indictment

In his second ground for relief, Ahumada asserts his trial counsel was ineffective in failing
to challenge the omission of a penalty provision in the indictment. See Doc. No. 125, p. 5. Ahumada
further asserts that “it appears the Grand Jury indictment does not contain the requisite elevated
penalty provision of the statute, pursuant to 21 U.S.C. § 840(a)(1), combined with § 841(b)(1)(A),
§ 841 (b)(1)(B), § 841(b)(1)(C), and § 841(b)(1)(D), to comport with due process of law. See Doc.
No. 125-7, p. 6. The Government responds by arguing that the indictment was not defective and that
Ahumada was clearly on notice as to the potential penalties. See Doc. No. 129, p. 16.
Rule 7(c)(1) of the Federal Rules of Criminal Procedure provides that an indicment must
contain “ a plain, concise, and definite written statement of the essential elements constituting the
offense charged” and that each count set forth the statute or other provision of law alleged to be
violated. See Fed. R. Crim. P 7(c)(1). Rule 7(c)(2) also provides that “[u]less the defendant was
misled and thereby prejudiced, neither an error in the citation nor a citation’s omission is a ground
to dismiss the indictment or information or to reverse a conviction.” See Fed. R. Crim. P 7(c)(2).
“An indictment is legally sufficient on its face if it contains all of the essential elements of the offense
charged, fairly informs the defendant of the charges against which he must defend, and alleges
sufficient information to allow a defendant to plead a conviction or acquittal as a bar to a subsequent
prosecution.” United States v. Carter, 270 F.3d 731, 736 (8th Cir. 2001). With respect to cases
involving controlled substances, when the government seeks to increase the maximum and minimum
statutory punishment based upon the drug quantity, the drug quantity becomes an essential element
of the charge that must be charged in the indictment and proved beyond a reasonable doubt to a jury.

8

App.12

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 9 of 18

United States v. Webb, 545 F.3d 673, 677 (8th Cir. 208); United States v. Aguayo-Delgado, 200 F.3d
926, 934 (8th Cir. 2000).
The indictment states, in relevant part, as follows:

...

COUNT ONE
Conspiracy to Possess with Intent to Distribute and Distribute
a Controlled Substance

From in or about November 2014 through the date of this Indictment, the exact
dates unknown to the grand jury, in the District of North Dakota, and elsewhere, . .
. CHARLES NMN AHUMADA did knowingly and intentionally combine, conspire,
confederate, and agree together with other, both known and unknown to the grand
jury, to possess with intent to distribute one kilogram or more of mixture and
substance containing a detectable amount of heroin, a Schedule I controlled substance,
In violation of Title 21, United States Code, Section 841(a)(1), and Title 18, United
States Code, Section 2.
...
COUNT TWO
Possession with Intent to Distribute a Controlled Substance
...
On or about December 29, 2014, in the District of North Dakota, . . . CHARLES
NMN AHUMADA knowingly and intentionally possessed with intent to distribute
one kilogram or more of a mixture and substance containing a detectable amount of
heroin, a Schedule I controlled substance; In violation of Title 21, United States
Code, Section 841(a)(1), and Title 18, United States Code, Section 2.
See Doc. No. 1.
It is evident from the indictment that Ahumada was charged with two counts, each involving
“one kilogram or more of a mixture and substance containing a detectable amount of heroin.”
Ahumada has provided no authority, nor has this Court been able to locate any, which requires the
penalty provisions to be cited in an indictment or which states the failure to do so renders the
indictment invalid or insufficient. In fact, the plain language of Rule 7 of the Federal Rules of
Criminal Procedure provides just the opposite – that an error or omission does not create a ground

9

App.13

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 10 of 18

for dismiss or to reverse a conviction. Because Ahumada’s assertion is contrary to well-established
law, such claims cannot be a basis for alleging ineffective assistance of counsel.
In his petition, Ahumada also makes a passing reference to counsel’s failure to object to the
“Pre Sentence Report with it’s use of the advisory Sentencing Guidelines, as was determined without
the statutory sentencing provision of 21 U.S.C. § 841(a)(1) mandatory minimum/maximum statute”
and argues that “[t]rial counsel had a Sixth Amendment Constitutional duty to effectively object, if
the Pre Sentence Report calculated the advisory Guideline sentence, without the application of the
mandatory minimum of the charge offnse.” See Doc. No. 125, p. 5 and 125-7, p. 7.
It is unclear what Ahumada is attempting to assert. In any event, the record clearly establishes
that the jury was instructed the drug quantity was an essential element of the crimes charged; that the
jury found Ahumada guilty of both counts; and that the Presentence Investigation Report correctly
calculated the base offense level using the correct drug quantity, as determined by the jury. See Doc.
Nos. 64, 66, and 98, p. 7. Further, at trial Ahumada stipulated to the admission of a lab report that
identified the quantity of heroin as 1800 grams (1.8 kilograms). See Doc. No. 69-2 (Government’s
Trial Exhibit 180 and Doc. No. 116 (Trial Transcript, p. 199).

Any objection by trial counsel as

to the drug quantity involved in this case would have been without merit, and thus cannot be the basis
for an ineffective assistance of counsel claim. See Carter v. Hopkins, 92 F.3d 666, 671 (8th Cir.
1996).
Accordingly, the Court finds that Ahumada’s claim of ineffective assistance of counsel as set
forth in ground two of his petition are without merit. Ahumada is not entitled to relief on this claim.

10

App.14

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 11 of 18

C.

Appellate Counsel’s Alleged Errors

In his third ground for relief, Ahumada assets his appellate counsel erred by failing to advance
the arguments or correct the errors of his trial counsel. Ahumada contends appellate counsel:
failed to raise the discovery violation of the Government’s alleged witness for
possible fraud upon the court(s) and impeachment of the Criminal Complaint
Affidavit and Grand Jury testimony concerning this alleged witness under plain error
review. Failed to raise the indictment’s omission of 21 U.S.C. § 841(b)(1)’s penalty
provision under plain error review, and failed to raise the Pre Sentence Report’s
application of the advisory Sentencing Guidelines under plain error review, because
of the indictment’s failure to charge the penalty provision of the statute.
See Doc. No. 125, p. 7. The Government responds that these claims fail for the same reasons as
Ahumada’s claims against his trial counsel. The Court agrees.
As the Court found in relation to Ahumada’s trial counsel, Ahumada is unable to establish that
these claims have merit. Each fail as a matter of law as discussed in Sections A and B above. As to
the claims regarding the confidential informant, Ahumada is unable to show prejudice because the
traffic stop was supported by probable cause independent from the alleged information of the
confidential informant. As to his claims of errors in the indictment or PSR, Ahumada’s claims are
contrary to the record and thus, cannot be the basis for a claim of ineffective assistance of counsel.
Accordingly, the Court finds Ahumada has failed to establish that his appellate counsel’s performance
was ineffective for failing to raise any of these grounds on appeal. Ahumada is not entitled to relief
on this claim.

11

App.15

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 12 of 18

D.

Abandonment by Counsel

In his fourth and final ground for relief, Ahumada claims both his trial and appellate counsel
failed to communicate with him and provide court files, which resulted in appellate counsel failing
to file a petition for rehearing. Ahumada asserts:
Numerous request were made to counsel to provide case information, provide court
document(s) and case file, petition for rehearing/rehearing en banc, and petition for
writ of certiorari to the Supreme Court . . . But counsel failed to respond, never
withdrew from this case, and failed to provide requested court document(s) needed
in preparation of this § 2255 motion, resulting into a total breakdown in the
attorney/client relationship. The Eighth Circuit Court of Appeals, and the District
Court have both electronically notified counsel of docketing activity, and counsel still
failed to respond.
See Doc. No. 125, p. 8.
To the extent Ahumada contends counsel was ineffective for failing to provide documents
needed for the preparation of his habeas petition, such allegation cannot serve as a basis for an
ineffective assistance of counsel claim because there is neither a constitutional right nor statutory
right to counsel in habeas proceedings. See Morris v. Dormire, 217 F.3d 556, 558 (8th Cir. 2000);
United States v. Craycraft, 167 F.3d 451, 455 (8th Cir. 1999); Blair v. Armontrout, 916 F.2d 1310,
1332 (8th Cir. 1990); see also Boyd v. Groose, 4 F.3d 669, 671 (8th Cir. 1993) (explaining that a
habeas corpus proceeding is a civil proceeding to which the Sixth Amendment right to counsel
afforded for criminal proceedings does not apply). Thus, “[s]ince the right to effective assistance of
counsel derives solely from the right to appellate counsel guaranteed by the right to due process . .
. a litigant . . . without a constitutional right to counsel cannot ‘be deprived of the effective assistance
of counsel.’” See Steele v. United States, 518 F.3d 986, 988 (2008) (citing Wainwright v. Torna, 455
U.S. 586, 587-88 (1982); Simpson v. Norris, 490 F.3d 1029, 1033 (8th Cir. 2007)(“where there is no
constitutional right to counsel there can be no deprivation of effective assistance.”).
12

App.16

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 13 of 18

The Court interprets Ahumada’s remaining assertion in this ground as a claim that his counsel
was ineffective for failing to communicate with him regarding the filing of a petition for rehearing
and thus, deprived him of the opportunity to express his desire to file a petition for rehearing. The
Court takes judicial notice that Ahumada’s appellate counsel was appointed pursuant to the Criminal
Justice Act of 1964. The record reveals the following chronology of events after the Eighth Circuit
denied Ahumada’s appeal, in an opinion filed June 5, 2017.
The same day the opinion was filed, June 5, 2017, the Eighth Circuit sent a letter to Ahumada
and his counsel informing them of the opinion and the 14-day time period to request a rehearing. See
Doc. No. 125-3, p. 10. By letter also dated June 5, 2017, but not postmarked until June 20, 2017,
appellate counsel sent a letter to Ahumada, which stated, in relevant part:
I am enclosing a copy of the decision of the 8th Circuit Court of Appeals on
your case, together with the Judgment.
You can file a Petition for Certiorari with the U.S. Supreme Court. Since I
have never done one, you would need to contact the Clerk’s Office in St. Louis,
Missouri.
See Doc. No. 125-3, pp. 11-12. It is undisputed the letter was postmarked one day after the expiration
of the 14-day period in which to file a petition for rehearing. Ahumada asserts he was in transit
during this period. See Doc. No. 125-3, p. 2. Ahumada claims that he received the “rerouted” order
and corresponding letter from the Eighth Circuit Court of Appeals on about June 27, 2017. See id.
Ahumada further claims that he received the letter from his appellate counsel about June 29, 2017.
See id. On July 1, 2017, Ahumada wrote to his attorney, raising concerns about the delay in
receiving notice of the Eighth Circuit’s decision, indicating his desire to seek rehearing, and
requesting counsel file for rehearing. See Doc. No. 125-3, pp. 7-8. On July 6, 2017, Ahumada filed
a pro se motion for a 14-day extension to file a petition for rehearing and rehearing en banc. See

13

App.17

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 14 of 18

Doc. No. 125-3, pp.1-13. The Eighth Circuit granted this motion, recalled its mandate, and extended
the time to file the motion to July 19, 2017. See Doc. No. 125-5. Ahumada submitted a petition for
rehearing and rehearing en banc, which was received and filed by the Eighth Circuit on July 25, 2017,
after the July 19, 2017, deadline. See Doc. No. 129-1, p.1. The Eighth Circuit dismissed the petition
for rehearing and rehearing en banc as untimely, on August 23, 2017. See Doc. No. 125-6.
The issue of whether failure to file or to communicate regarding the filing of a petition for
rehearing constitutes ineffective assistance of counsel appears to be a matter of first impression in the
Eighth Circuit. However, in the case of Steele v. United States, 518 F.3d 986 (8th Cir. 2008), the
Eighth Circuit found a habeas petitioner did not have a constitutional right to counsel for the filing
of a certiorari petition. The Eighth Circuit reasoned as follows:
The right to counsel at trial is guaranteed by the Sixth Amendment, but the
Fifth Amendment due process clause governs the right to counsel for appellate
proceedings. See Ross v. Mofit, 417 U.S. 600, 610-11, 94 S.Ct. 2437, 41 L.Ed.2d 341
(1974); Scott v. United States, 473 F.3d 1262, 1264 (8th Cir. 2007). Due process
guarantees a criminal defendant a constitutional right to counsel for her first appeal,
Douglas v. California 372 U.S. 353, 357-58, 83 S.Ct. 841, 9 L.Ed.2d 811(1963), and
that right encompasses the right to effective assistance of counsel, Evitts v. Lucery,
469 U.S. 387, 396-400, 105 S. Ct. 830, L.Ed.2d 821 (1985).
Due process does not, however, guarantee a constitutional right to counsel for
a litigant seeking to file a certiorari petition in the United States Supreme Court.
Ross, 471 U.S. at 617-18, 94 S.Ct. 2437; see Pennsylvania v. Finley, 481 U.S. 551,
555, 107 S. Ct. 1990, 95 L.Ed.2d 539 (1987) (“[T]he right to appointed counsel
extends to the first appeal of right, and no further.”); see also 28 U.S.C. § 1254 (writ
of certiorari is discretionary). Since the right to effective assistance of counsel derives
solely from the right to appellate counsel guaranteed by the right to due process,
Wainwright v. Torna, 455 U.S. 586, 587-88, 102 S.Ct. 1300, 71 L.Ed 2d 475 (1982),
a litigant like Steele without a constitutional right to counsel cannot “be deprived of
the effective assistance of counsel.” Id. see also Simpson v. Norris, 490 F.3d 1029,
1033 (8th Cir. 2007) (“where there is no constitutional right to counsel there can be
no deprivation of effective assistance.”). In the absence of a constitutional right to the
effective assistance of counsel Steele’s § 2255 claims for ineffective assistance cannot
succeed.

14

App.18

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 15 of 18

See Steele v. U.S. 518 F.3d 986, 988 (8th Cir. 2008). In reaching this decision, the Eighth Circuit
also found that neither the Eighth Circuit’s Criminal Justice Act Plan1 nor Rule 44(a) of the Federal
Rules of Criminal Procedure2 are constitutional requirements, and thus, alleged violations of such
cannot be the basis for an ineffective assistance of counsel claim. See id.

1

The Revision of Part V of the Eighth Circuit Plan to Implement the Criminal Justice Act of 1964,
provides:
Where the decision of the court of appeals is adverse to the defendant in whole or in part, the duty
of counsel on appeal extends to (1) advising the defendant of the right to file a petition for panel
rehearing and a petition for rehearing en banc in the court of appeals and a petition for writ of
certiorari in the Supreme Court of the United States, and (2) informing the defendant of counsel’s
opinion as to the merit and likelihood of the success of those petitions. If the defendant requests
that counsel file any of those petitions, counsel must file the petition if counsel determines that
there are reasonable grounds to believe that the petition would satisfy the standards of Federal Rule
of Appellate Procedure 40, Federal Rule of Appellate Procedure 35(a) or Supreme Court Rule 10,
as applicable. See Austin v. United States, 513 U.S. 5 (1994) (per curiam); 8th Cir. R. 35A.
If counsel declines to file a petition for panel rehearing or rehearing en banc requested by the
defendant based upon counsel’s determination that there are not reasonable grounds to do so,
counsel must so inform the court and must file a written motion to withdraw. The motion to
withdraw must be filed on or before the due date for a petition for rehearing, must certify that
counsel has advised the defendant of the procedures for filing pro se a timely petition for
rehearing, and must request an extension of time of 28 days within which to file pro se a petition
for rehearing. The motion also must certify that counsel has advised the defendant of the
procedures for filing pro se a timely petition for writ of certiorari.
If counsel declines to file a petition for writ of certiorari requested by the defendant based on
counsel’s determination that there are not reasonable grounds to do so, counsel must so inform the
court and must file a written motion to withdraw. The motion must certify that counsel has advised
the defendant of the procedures for filing pro se a timely petition for writ of certiorari.
A motion to withdraw must be accompanied by counsel’s certification that a copy of the motion
was furnished to the defendant and to the United States. Where counsel is granted leave to
withdraw pursuant to the procedures of Anders v. California, 386 U.S. 738 (1967), and Penson v.
Ohio, 488 U.S. 75 (1988), counsel’s duty of representation is completed, and the clerk’s letter
transmitting the decision of the court will notify the defendant of the procedures for filing pro se a
timely petition for panel rehearing, a timely petition for rehearing en banc, and a timely petition for
writ of certiorari.
Revision of Part V of the Eighth Circuit Plan to Implement the Criminal Justice Act of 1964,
https://ecf.ca8.uscourts.gov/newrules/coa/Plan_V_Revision.pdf.
2

Rule 44(a) of the Federal Rules of Criminal Procedure provides: “A defendant who is unable to obtain
counsel is entitled to have counsel appointed to represent the defendant at every stage of the proceedings from initial
appearance through appeal, unless the defendant waives this right.”

15

App.19

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 16 of 18

While our plan to implement the mandates of the Criminal Justice Act of 1964
may well embody the congressional judgment as to what representation to afford
defendants, it is not a statement of what the Constitution requires. As in Finley, 481
U.S. at 553-59, 107 S.Ct. 1990, the source of the duty in our plan is a legislative
policy judgment rather than a constitutional command. Similarly, the right created by
Rule 44(a), which embodies a right to free counsel for indigent defendants, arises
from rules of the Supreme Court promulgated pursuant to statutory authorization, not
from a constitutional requirement. See 28 U.S.C. §§ 2071-77 (Rules Enabling Act).
The alleged breach of the provisions of our plan and Rule 44(a) did not deprive Steele
of due process of law and did not give rise to a claim for ineffective representation of
counsel.
See Steele 518 F.3d at 988.
Two other circuit courts have directly addressed the issue and determined that criminal
defendant do have a right to the continued representation of appointed counsel throughout the course
of an appeal, including the filing of post-opinion pleadings. See Taylor v. United States, 822 F.3d
84 (2d Cir. 2016); United States v. Howell, 37 F.3d 1207 (7th Cir. 1994). In reaching their
conclusions the Taylor court found the Criminal Justice Act “entitles defendants to representation in
filing non-frivolous petitions for rehearing and rehearing en banc” and the Howell court found the
Criminal Justice Act, Rule 44(a) of the Federal Rules of Criminal Procedure, and Circuit Rule 4
“make it clear that the defendant in a direct criminal appeal has the right to have the continued
representation of appointed counsel throughout the course of the appeal, including the filing of postopinion pleadings in the court of appeals.” See Taylor, 822 F.3d at 89-90; Howell, 37 F.3d at 1209.
These holding are distinguishable from the holding in the Eighth Circuit in Steele in that both the
Second and Seventh Circuits relied upon authorities other than the Constitution, whereas the Eighth
Circuit held a litigant without a constitutional right to counsel cannot be deprived of the effective
assistance of counsel. See Steele 518 F.3d at 988.

16

App.20

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 17 of 18

Although it did not directly address the issue of petitions for rehearing, the Court finds the
Steele case instructive. The Eighth Circuit has clearly held that, absent a constitutional right to
counsel, no claim for ineffective assistance of counsel can succeed. Steele 518 F.3d at 988. The
record clearly establishes that Ahumada’s appellate counsel’s performance did not adhere to the
Eighth Circuit’s CJA Plan. Appellate counsel’s letter to Ahumada did not mention the process for
filing a petition for rehearing. However, it is equally clear the Eighth Circuit does not consider its
CJA Plan to create a constitutional right to counsel and, thus, a violation of its CJA Plan cannot be
the basis for an ineffective assistance of counsel claim. See id. Following the reasoning in Steele, the
Court finds that Ahumada has failed to establish that he has a constitutional right to counsel for the
filing of a petition for rehearing or rehearing en banc and, thus, because he has no constitutional right
to counsel for post-opinion pleadings, he likewise has no claim for ineffective assistance of counsel.
Accordingly, the Court finds Ahumada is not entitled to relief on this claim.

IV.

CONCLUSION
The Court has carefully reviewed the entire record, the parties’ filings, and the relevant case

law. For the reasons set forth above, Ahumada’s motion to vacate, set aside, or correct a sentence
pursuant to 28 U.S.C. § 2255 (Doc. No. 125) is DENIED. The Court also issues the following
ORDER:
1)

Because the issue appears to be a matter of first impression in the Eighth
Circuit, the Court issues a certificate of appealability on the limited issue of
whether a criminal defendant has a right to counsel for the filing to a petition
for rehearing or a petition enbanc because the dismissal of the motion is
debatable, reasonably subject to a different outcome on appeal, or otherwise
deserving of further proceedings.

17

App.21

Case 1:15-cr-00044-DLH Document 133 Filed 11/20/19 Page 18 of 18

2)

The Court certifies that an appeal from the denial of this motion may be taken
in forma pauperis.

IT IS SO ORDERED.
Dated this 20th day of November, 2019.
/s/ Daniel L. Hovland
Daniel L. Hovland, District Judge
United States District Court

18

App.22

Case 1:15-cr-00044-DLH Document 134 Filed 11/20/19 Page 1 of 1

Local 2255 Judgment (Rev. /1)

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA

Charles Ahumada,
Petitioner/Defendant
v.
United States of America
Respondent/Plaintiff.

)
)
)
)
)
)
)
)
)

JUDGMENT ON PETITION
PURSUANT TO 28 U.S.C. § 2255
Criminal Case No. 1:15-cr-044
Civil Case No.

1:18-cv-183

IT IS ORDERED AND ADJUDGED that the Petitioner’s Motion to Vacate, Set Aside,
or Correct Sentence under 28 U.S.C. § 2255 is dismissed, pursuant to the Order filed on
November 20, 2019.

CLERK OF COURT
Date: November 20, 2019

/s/ Anja Miller, Deputy Clerk
______________________________________
6LJQDWXUHRI&OHUNRU'HSXW\&OHUN

App.23

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 19-3632
___________________
Charles Ahumada
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
______________________________________________________________________________
Appeal from U.S. District Court for the District of North Dakota - Bismarck
(1:18-cv-00183-DLH)
______________________________________________________________________________
JUDGMENT
Before COLLOTON, BENTON and KELLY, Circuit Judges.
This appeal from the United States District Court was submitted on the record of the
district court, briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
April 22, 2021

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 19-3632

Page: 1

App.24
Date Filed: 04/22/2021 Entry ID: 5027978

18 U.S. Code § 3006A Adequate representation of defendants
(a) CHOICE OF PLAN.—Each United States district court, with the approval of the
judicial council of the circuit, shall place in operation throughout the district a plan
for furnishing representation for any person financially unable to obtain adequate
representation in accordance with this section. Representation under each plan shall
include counsel and investigative, expert, and other services necessary for adequate
representation. Each plan shall provide the following:
(1) Representation shall be provided for any financially eligible person who—
(A) is charged with a felony or a Class A misdemeanor;
(B) is a juvenile alleged to have committed an act of juvenile delinquency as
defined in section 5031 of this title;
(C) is charged with a violation of probation;
(D) is under arrest, when such representation is required by law;
(E) is charged with a violation of supervised release or faces modification,
reduction, or enlargement of a condition, or extension or revocation of a term
of supervised release;
(F) is subject to a mental condition hearing under chapter 313 of this title;
(G) is in custody as a material witness;
(H) is entitled to appointment of counsel under the sixth amendment to the
Constitution;
(I) faces loss of liberty in a case, and Federal law requires the appointment of
counsel; or
(J) is entitled to the appointment of counsel under section 4109 of this title.
(2) Whenever the United States magistrate judge or the court determines that the
interests of justice so require, representation may be provided for any financially
eligible person who—
(A) is charged with a Class B or C misdemeanor, or an infraction for which a
sentence to confinement is authorized; or

App.25

(B) is seeking relief under section 2241, 2254, or 2255 of title 28.
(3) Private attorneys shall be appointed in a substantial proportion of the cases.
Each plan may include, in addition to the provisions for private attorneys, either
of the following or both:
(A) Attorneys furnished by a bar association or a legal aid agency,
(B) Attorneys furnished by a defender organization established in accordance
with the provisions of subsection (g).
Prior to approving the plan for a district, the judicial council of the circuit shall
supplement the plan with provisions for representation on appeal. The district
court may modify the plan at any time with the approval of the judicial council of
the circuit. It shall modify the plan when directed by the judicial council of the
circuit. The district court shall notify the Administrative Office of the United
States Courts of any modification of its plan.
(b) APPOINTMENT OF COUNSEL.—
Counsel furnishing representation under the plan shall be selected from a panel of
attorneys designated or approved by the court, or from a bar association, legal aid
agency, or defender organization furnishing representation pursuant to the plan. In
every case in which a person entitled to representation under a plan approved under
subsection (a) appears without counsel, the United States magistrate judge or the
court shall advise the person that he has the right to be represented by counsel and
that counsel will be appointed to represent him if he is financially unable to obtain
counsel. Unless the person waives representation by counsel, the United States
magistrate judge or the court, if satisfied after appropriate inquiry that the person is
financially unable to obtain counsel, shall appoint counsel to represent him. Such
appointment may be made retroactive to include any representation furnished
pursuant to the plan prior to appointment. The United States magistrate judge or the
court shall appoint separate counsel for persons having interests that cannot properly
be represented by the same counsel, or when other good cause is shown.
(c) DURATION AND SUBSTITUTION OF APPOINTMENTS.—
A person for whom counsel is appointed shall be represented at every stage of the
proceedings from his initial appearance before the United States magistrate judge or
the court through appeal, including ancillary matters appropriate to the proceedings.
If at any time after the appointment of counsel the United States magistrate judge or
the court finds that the person is financially able to obtain counsel or to make partial
payment for the representation, it may terminate the appointment of counsel or
authorize payment as provided in subsection (f), as the interests of justice may
dictate. If at any stage of the proceedings, including an appeal, the United States
magistrate judge or the court finds that the person is financially unable to pay counsel

App.26

whom he had retained, it may appoint counsel as provided in subsection (b) and
authorize payment as provided in subsection (d), as the interests of justice may
dictate. The United States magistrate judge or the court may, in the interests of
justice, substitute one appointed counsel for another at any stage of the proceedings.
(d) PAYMENT FOR REPRESENTATION.—
(1) HOURLY RATE.—
Any attorney appointed pursuant to this section or a bar association or legal aid
agency or community defender organization which has provided the appointed
attorney shall, at the conclusion of the representation or any segment thereof, be
compensated at a rate not exceeding $60 per hour for time expended in court or
before a United States magistrate judge and $40 per hour for time reasonably
expended out of court, unless the Judicial Conference determines that a higher
rate of not in excess of $75 per hour is justified for a circuit or for particular
districts within a circuit, for time expended in court or before a United States
magistrate judge and for time expended out of court. The Judicial Conference shall
develop guidelines for determining the maximum hourly rates for each circuit in
accordance with the preceding sentence, with variations by district, where
appropriate, taking into account such factors as the minimum range of the
prevailing hourly rates for qualified attorneys in the district in which the
representation is provided and the recommendations of the judicial councils of the
circuits. Not less than 3 years after the effective date of the Criminal Justice Act
Revision of 1986, the Judicial Conference is authorized to raise the maximum
hourly rates specified in this paragraph up to the aggregate of the overall average
percentages of the adjustments in the rates of pay under the General Schedule
made pursuant to section 5305 of title 5 on or after such effective date. After the
rates are raised under the preceding sentence, such maximum hourly rates may
be raised at intervals of not less than 1 year each, up to the aggregate of the overall
average percentages of such adjustments made since the last raise was made
under this paragraph. Attorneys may be reimbursed for expenses reasonably
incurred, including the costs of transcripts authorized by the United States
magistrate or the court, and the costs of defending actions alleging malpractice of
counsel in furnishing representational services under this section. No
reimbursement for expenses in defending against malpractice claims shall be
made if a judgment of malpractice is rendered against the counsel furnishing
representational services under this section. The United States magistrate or the
court shall make determinations relating to reimbursement of expenses under this
paragraph.
(2) MAXIMUM AMOUNTS.—
For representation of a defendant before the United States magistrate judge or
the district court, or both, the compensation to be paid to an attorney or to a bar
association or legal aid agency or community defender organization shall not

App.27

exceed $7,000 for each attorney in a case in which one or more felonies are
charged, and $2,000 for each attorney in a case in which only misdemeanors are
charged. For representation of a defendant in an appellate court, the
compensation to be paid to an attorney or to a bar association or legal aid agency
or community defender organization shall not exceed $5,000 for each attorney in
each court. For representation of a petitioner in a non-capital habeas corpus
proceeding, the compensation for each attorney shall not exceed the amount
applicable to a felony in this paragraph for representation of a defendant before a
judicial officer of the district court. For representation of such petitioner in an
appellate court, the compensation for each attorney shall not exceed the amount
applicable for representation of a defendant in an appellate court. For
representation of an offender before the United States Parole Commission in a
proceeding under section 4106A of this title, the compensation shall not exceed
$1,500 for each attorney in each proceeding; for representation of an offender in
an appeal from a determination of such Commission under such section, the
compensation shall not exceed $5,000 for each attorney in each court. For any
other representation required or authorized by this section, the compensation
shall not exceed $1,500 for each attorney in each proceeding. The compensation
maximum amounts provided in this paragraph shall increase simultaneously by
the same percentage, rounded to the nearest multiple of $100, as the aggregate
percentage increases in the maximum hourly compensation rate paid pursuant to
paragraph (1) for time expended since the case maximum amounts were last
adjusted.
(3) WAIVING MAXIMUM AMOUNTS.—
Payment in excess of any maximum amount provided in paragraph (2) of this
subsection may be made for extended or complex representation whenever the
court in which the representation was rendered, or the United States magistrate
judge if the representation was furnished exclusively before him, certifies that the
amount of the excess payment is necessary to provide fair compensation and the
payment is approved by the chief judge of the circuit. The chief judge of the circuit
may delegate such approval authority to an active or senior circuit judge.
(4) DISCLOSURE OF FEES.—
(A) In general.—
Subject to subparagraphs (B) through (E), the amounts paid under this
subsection for services in any case shall be made available to the public by the
court upon the court’s approval of the payment.
(B) Pre-trial or trial in progress.—If a trial is in pre-trial status or still in
progress and after considering the defendant’s interests as set forth in
subparagraph (D), the court shall—

App.28

(i) redact any detailed information on the payment voucher provided by
defense counsel to justify the expenses to the court; and
(ii) make public only the amounts approved for payment to defense counsel
by dividing those amounts into the following categories:
(I) Arraignment and or plea.
(II) Bail and detention hearings.
(III) Motions.
(IV) Hearings.
(V) Interviews and conferences.
(VI) Obtaining and reviewing records.
(VII) Legal research and brief writing.
(VIII) Travel time.
(IX) Investigative work.
(X) Experts.
(XI) Trial and appeals.
(XII) Other.
(C) Trial completed.—
(i) In general.—
If a request for payment is not submitted until after the completion of the
trial and subject to consideration of the defendant’s interests as set forth in
subparagraph (D), the court shall make available to the public an
unredacted copy of the expense voucher.
(ii) Protection of the rights of the defendant.—
If the court determines that defendant’s interests as set forth in
subparagraph (D) require a limited disclosure, the court shall disclose
amounts as provided in subparagraph (B).

App.29

(D) Considerations.—The interests referred to in subparagraphs (B) and (C)
are—
(i) to protect any person’s 5th amendment right against self-incrimination;
(ii) to protect the defendant’s 6th amendment rights to effective assistance
of counsel;
(iii) the defendant’s attorney-client privilege;
(iv) the work product privilege of the defendant’s counsel;
(v) the safety of any person; and
(vi) any other interest that justice may require, except that the amount of
the fees shall not be considered a reason justifying any limited disclosure
under section 3006A(d)(4) of title 18, United States Code.
(E) Notice.—
The court shall provide reasonable notice of disclosure to the counsel of the
defendant prior to the approval of the payments in order to allow the counsel
to request redaction based on the considerations set forth in subparagraph (D).
Upon completion of the trial, the court shall release unredacted copies of the
vouchers provided by defense counsel to justify the expenses to the court. If
there is an appeal, the court shall not release unredacted copies of the vouchers
provided by defense counsel to justify the expenses to the court until such time
as the appeals process is completed, unless the court determines that none of
the defendant’s interests set forth in subparagraph (D) will be compromised.
(F) Effective date.—
The amendment made by paragraph (4) shall become effective 60 days after
enactment of this Act, will apply only to cases filed on or after the effective
date, and shall be in effect for no longer than 24 months after the effective date.
(5) FILING CLAIMS.—
A separate claim for compensation and reimbursement shall be made to the
district court for representation before the United States magistrate judge and the
court, and to each appellate court before which the attorney provided
representation to the person involved. Each claim shall be supported by a sworn
written statement specifying the time expended, services rendered, and expenses
incurred while the case was pending before the United States magistrate judge
and the court, and the compensation and reimbursement applied for or received
in the same case from any other source. The court shall fix the compensation and
reimbursement to be paid to the attorney or to the bar association or legal aid

App.30

agency or community defender organization which provided the appointed
attorney. In cases where representation is furnished exclusively before a United
States magistrate judge, the claim shall be submitted to him and he shall fix the
compensation and reimbursement to be paid. In cases where representation is
furnished other than before the United States magistrate judge, the district court,
or an appellate court, claims shall be submitted to the district court which shall
fix the compensation and reimbursement to be paid.
(6) NEW TRIALS.—
For purposes of compensation and other payments authorized by this section, an
order by a court granting a new trial shall be deemed to initiate a new case.
(7) PROCEEDINGS BEFORE APPELLATE COURTS.—
If a person for whom counsel is appointed under this section appeals to an
appellate court or petitions for a writ of certiorari, he may do so without
prepayment of fees and costs or security therefor and without filing the affidavit
required by section 1915(a) of title 28.
(e) SERVICES OTHER THAN COUNSEL.—
(1) UPON REQUEST.—
Counsel for a person who is financially unable to obtain investigative, expert, or
other services necessary for adequate representation may request them in an ex
parte application. Upon finding, after appropriate inquiry in an ex parte
proceeding, that the services are necessary and that the person is financially
unable to obtain them, the court, or the United States magistrate judge if the
services are required in connection with a matter over which he has jurisdiction,
shall authorize counsel to obtain the services.
(2) WITHOUT PRIOR REQUEST.—
(A) Counsel appointed under this section may obtain, subject to later review,
investigative, expert, and other services without prior authorization if
necessary for adequate representation. Except as provided in subparagraph
(B) of this paragraph, the total cost of services obtained without prior
authorization may not exceed $800 and expenses reasonably incurred.
(B) The court, or the United States magistrate judge (if the services were
rendered in a case disposed of entirely before the United States magistrate
judge), may, in the interest of justice, and upon the finding that timely
procurement of necessary services could not await prior authorization, approve
payment for such services after they have been obtained, even if the cost of
such services exceeds $800.

App.31

(3) MAXIMUM AMOUNTS.—
Compensation to be paid to a person for services rendered by him to a person
under this subsection, or to be paid to an organization for services rendered by an
employee thereof, shall not exceed $2,400, exclusive of reimbursement for
expenses reasonably incurred, unless payment in excess of that limit is certified
by the court, or by the United States magistrate judge if the services were
rendered in connection with a case disposed of entirely before him, as necessary
to provide fair compensation for services of an unusual character or duration, and
the amount of the excess payment is approved by the chief judge of the circuit.
The chief judge of the circuit may delegate such approval authority to an active or
senior circuit judge.
(4) DISCLOSURE OF FEES.—
The amounts paid under this subsection for services in any case shall be made
available to the public.
(5) The dollar amounts provided in paragraphs (2) and (3) shall be adjusted
simultaneously by an amount, rounded to the nearest multiple of $100, equal to
the percentage of the cumulative adjustments taking effect under section 5303 of
title 5 in the rates of pay under the General Schedule since the date the dollar
amounts provided in paragraphs (2) and (3), respectively, were last enacted or
adjusted by statute.
(f) RECEIPT OF OTHER PAYMENTS.—
Whenever the United States magistrate judge or the court finds that funds are
available for payment from or on behalf of a person furnished representation, it may
authorize or direct that such funds be paid to the appointed attorney, to the bar
association or legal aid agency or community defender organization which provided
the appointed attorney, to any person or organization authorized pursuant to
subsection (e) to render investigative, expert, or other services, or to the court for
deposit in the Treasury as a reimbursement to the appropriation, current at the time
of payment, to carry out the provisions of this section. Except as so authorized or
directed, no such person or organization may request or accept any payment or
promise of payment for representing a defendant.
(g) DEFENDER ORGANIZATION.—
(1) QUALIFICATIONS.—
A district or a part of a district in which at least two hundred persons annually
require the appointment of counsel may establish a defender organization as
provided for either under subparagraphs (A) or (B) of paragraph (2) of this
subsection or both. Two adjacent districts or parts of districts may aggregate the
number of persons required to be represented to establish eligibility for a defender
organization to serve both areas. In the event that adjacent districts or parts of

App.32

districts are located in different circuits, the plan for furnishing representation
shall be approved by the judicial council of each circuit.
(2) TYPES OF DEFENDER ORGANIZATIONS.—
(A) Federal Public Defender Organization.—
A Federal Public Defender Organization shall consist of one or more full-time
salaried attorneys. An organization for a district or part of a district or two
adjacent districts or parts of districts shall be supervised by a Federal Public
Defender appointed by the court of appeals of the circuit, without regard to the
provisions of title 5 governing appointments in the competitive service, after
considering recommendations from the district court or courts to be served.
Nothing contained herein shall be deemed to authorize more than one Federal
Public Defender within a single judicial district. The Federal Public Defender
shall be appointed for a term of four years, unless sooner removed by the court
of appeals of the circuit for incompetency, misconduct in office, or neglect of
duty. Upon the expiration of his term, a Federal Public Defender may, by a
majority vote of the judges of the court of appeals, continue to perform the
duties of his office until his successor is appointed, or until one year after the
expiration of such Defender’s term, whichever is earlier. The compensation of
the Federal Public Defender shall be fixed by the court of appeals of the circuit
at a rate not to exceed the compensation received by the United States attorney
for the district where representation is furnished or, if two districts or parts of
districts are involved, the compensation of the higher paid United States
attorney of the districts. The Federal Public Defender may appoint, without
regard to the provisions of title 5 governing appointments in the competitive
service, full-time attorneys in such number as may be approved by the court of
appeals of the circuit and other personnel in such number as may be approved
by the Director of the Administrative Office of the United States Courts.
Compensation paid to such attorneys and other personnel of the organization
shall be fixed by the Federal Public Defender at a rate not to exceed that paid
to attorneys and other personnel of similar qualifications and experience in the
Office of the United States attorney in the district where representation is
furnished or, if two districts or parts of districts are involved, the higher
compensation paid to persons of similar qualifications and experience in the
districts. Neither the Federal Public Defender nor any attorney so appointed
by him may engage in the private practice of law. Each organization shall
submit to the Director of the Administrative Office of the United States Courts,
at the time and in the form prescribed by him, reports of its activities and
financial position and its proposed budget. The Director of the Administrative
Office shall submit, in accordance with section 605 of title 28, a budget for each
organization for each fiscal year and shall out of the appropriations therefor
make payments to and on behalf of each organization. Payments under this

App.33

subparagraph to an organization shall be in lieu of payments under subsection
(d) or (e).
(B) Community Defender Organization.—A Community Defender
Organization shall be a non-profit defense counsel service established and
administered by any group authorized by the plan to provide representation.
The organization shall be eligible to furnish attorneys and receive payments
under this section if its bylaws are set forth in the plan of the district or
districts in which it will serve. Each organization shall submit to the Judicial
Conference of the United States an annual report setting forth its activities
and financial position and the anticipated caseload and expenses for the next
fiscal year. Upon application an organization may, to the extent approved by
the Judicial Conference of the United States:
(i) receive an initial grant for expenses necessary to establish the
organization; and
(ii) in lieu of payments under subsection (d) or (e), receive periodic
sustaining grants to provide representation and other expenses pursuant
to this section.
(3) MALPRACTICE AND NEGLIGENCE SUITS.—
The Director of the Administrative Office of the United States Courts shall, to the
extent the Director considers appropriate, provide representation for and hold
harmless, or provide liability insurance for, any person who is an officer or
employee of a Federal Public Defender Organization established under this
subsection, or a Community Defender Organization established under this
subsection which is receiving periodic sustaining grants, for money damages for
injury, loss of liberty, loss of property, or personal injury or death arising from
malpractice or negligence of any such officer or employee in furnishing
representational services under this section while acting within the scope of that
person’s office or employment.
(h) RULES AND REPORTS.—
Each district court and court of appeals of a circuit shall submit a report on the
appointment of counsel within its jurisdiction to the Administrative Office of the
United States Courts in such form and at such times as the Judicial Conference of
the United States may specify. The Judicial Conference of the United States may,
from time to time, issue rules and regulations governing the operation of plans
formulated under this section.
(i) APPROPRIATIONS.—
There are authorized to be appropriated to the United States courts, out of any money
in the Treasury not otherwise appropriated, sums necessary to carry out the

App.34

provisions of this section, including funds for the continuing education and training
of persons providing representational services under this section. When so specified
in appropriation acts, such appropriations shall remain available until expended.
Payments from such appropriations shall be made under the supervision of the
Director of the Administrative Office of the United States Courts.
(j) DISTRICTS INCLUDED.—
As used in this section, the term “district court” means each district court of the
United States created by chapter 5 of title 28, the District Court of the Virgin Islands,
the District Court for the Northern Mariana Islands, and the District Court of Guam.
(k) APPLICABILITY IN THE DISTRICT OF COLUMBIA.—
The provisions of this section shall apply in the United States District Court for the
District of Columbia and the United States Court of Appeals for the District of
Columbia Circuit. The provisions of this section shall not apply to the Superior
Court of the District of Columbia and the District of Columbia Court of Appeals.

App.35

